HHS/OIG - Audit,"Review of Pension Costs Claimed for Medicare Reimbursement by Health Care Service Corporation,"(A-07-01-00128)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Health Care
Service Corporation," (A-07-01-00128)
May 29, 2001
Complete
Text of Report is available in PDF format (120 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review was to determine the allowability of
pension costs claimed for Medicare reimbursement for Fiscal Years (FYs) 1992
through 1998.   We determined that Health Care Service Corporation (HCSC)
underclaimed allowable Medicare pension costs by $1,292,114.  We recommended
that HCSC revise its Final Administrative Cost Proposals (FACPs) to reflect the
remaining allowable pension costs.